                 

                 

                    U.S. ENVIRONMENTAL PROTECTION AGENCY 

                    OFFICE OF INSPECTOR GENERAL 




                    Close-Out of Hotline Complaint on
                    Unreasonable Cost Increase to the
                    Wastewater Treatment Facility
                    Improvements, Perkins, Oklahoma

                    Report No. 12-X-0161               December 29, 2011




Scan this code to
learn more about
the EPA OIG.
Report Contributors:                               Bill Spinazzola
                                                   Michael Rickey




  Hotline 

  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov.                     write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm.                Washington, DC 20460
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                              THE INSPECTOR GENERAL




                                      December 29, 2011

MEMORANDUM

SUBJECT:	 Close-Out of Hotline Complaint on Unreasonable Cost Increase to the
          Wastewater Treatment Facility Improvements, Perkins, Oklahoma
          Report No. 12-X-0161


FROM:	        Arthur A. Elkins, Jr.
              Inspector General

TO:           Al Armendariz
              Regional Administrator, Region 6
              U.S. Environmental Protection Agency


We have closed a hotline complaint that project costs increased unreasonably due to American
Recovery and Reinvestment Act of 2009 (Recovery Act) requirements because we found no
evidence to support the complaint. According to the complaint, project costs increased by about
40 percent when the Perkins Public Works Authority added the Recovery Act’s Buy American
and Wage Rate requirements, while other projects only increased by about 5 percent.

To assess the complaint, we performed the following procedures:

   	 Interviewed the following individuals: Perkins city manager and contact point for the
      Perkins Public Works Authority; vice president for the Public Works Authority’s
      consulting engineer for design and construction services; the construction company’s vice
      president; construction employees; the public works authority’s financial advisor; the
      chief and assistant chief of the Financial Assistance Division, Oklahoma Water
      Resources Board; and representatives from EPA’s Region 6 and Office of Water.

   	 Analyzed pertinent documents, including the loan application and loan agreement;
      construction bids; construction contract; certified construction payrolls; cost estimates
      from the engineering report and revised engineering report, dated March 3, 2008, and
      May 10, 2008, respectively; and state-provided bid information on projects in Mustang,
      Moore, and Sallisaw, Oklahoma.




12-X-0161                                                                                         1
Total estimated project costs increased significantly after the six sealed construction bids were
opened in May 2009. The lowest construction bid of $5.9 million was almost 48 percent higher
than the design engineer’s estimated construction costs used in the public works authority’s loan
application. The design engineer's construction estimate used in the application was prepared in
March 2008, about 14 months before the sealed construction bids were opened. The higher
construction costs increased other project costs as well. For example, costs for engineering and
construction staking were based on a percentage of the construction cost. Fees for the bond
counsel, local counsel, and financial advisor were based on a percentage of the loan amount,
which increased as a result of higher construction costs.

We were not able to determine why the contracted construction costs were so much higher than
the engineer’s initial estimates used in the loan application because of a lack of comparative data.
The initial estimates and the lump sum construction bids did not include detail or common
components that could be compared. Without some data similarities between the engineer’s
construction estimates and the construction bid, there is no way to compare and find variances.
Neither the contractor nor the engineer could offer an explanation for the large difference.

Although the lowest construction bid was substantially higher than the engineer’s original
estimate, we found no evidence that Recovery Act requirements caused this large increase. The
Recovery Act’s wage requirement had no effect because the contractor paid its construction
employees higher wages than those required. The impact of the Buy American requirement was
unknown because the contractor only requested prices for American-made goods, as required by
the Recovery Act.

Further, the Oklahoma Water Resources Board obtained information on the increase in costs for
three other projects in the state when Recovery Act requirements were added. These three
projects averaged less than a 4 percent increase in construction costs with Recovery Act
requirements. The Perkins Public Works Authority only requested bids with Recovery Act
requirements included because it knew that Recovery Act funds were available for the project.
Therefore, the bids did not have costs with and without Recovery Act requirements like some
other Oklahoma projects.

Because we did not find any indication that Recovery Act requirements increased project costs,
we have closed the complaint, and plan no further action on this matter.


Action Required

Because this report contains no recommendations, you are not required to respond to this report.
The report will be made available at http://epa.gov/oig. If you or your staff have any questions
regarding this report, please contact Melissa Heist, Assistant Inspector General for Audit, at
(202) 566-0899 or heist.melissa@epa.gov; or Robert Adachi, Product Line Director, at
(415) 947-4537 or adachi.robert@epa.gov.




12-X-0161                                                                                              2
                                                                                  Appendix A

                                     Distribution
Regional Administrator, Region 6 

Agency Follow-Up Official (the CFO) 

Agency Follow-Up Coordinator 

Audit Follow-Up Coordinator, Region 6 

Public Affairs Officer, Region 6 

Chief, State Revolving Fund and Projects Section, Water Quality Protection Division, Region 6 

Chief, Financial Assistance Division, Oklahoma Water Resources Board 

City Manager, Perkins, Oklahoma 





12-X-0161                                                                                         3
